Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice 950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for the United States
David Franklin Klein
Pillsbury Winthrop Shaw Pittman LLP
1200 17th Street NW
Washington, DC 20036
202.663.9207
david.klein@pillsburylaw.com
Counsel for Zayn al-Abidin Muhammad Husayn, et al.
Christopher W. Tompkins
Betts, Patterson & Mines, P.S.
701 Pike Street, Suite 1400
Seattle, WA 98101
206.268.8682
ctompkins@bpmlaw.com
Counsel for James Elmer Mitchell and John Jessen

